Office of Inspector General


October 29, 2010

MEMORANDUM

TO:              USAID/Haiti Mission Director, Carleene Dei

FROM:            Regional Inspector General/San Salvador, Catherine Trujillo /s/

SUBJECT:         Review of Fondation Sogebank's Activities Financed by USAID/Haiti
                 (Report No. 1-521-11-001-S)

This memorandum transmits our final report on the subject review. We have considered
your comments on the draft in finalizing this report and have included your response in
Appendix II.

The report contains 15 recommendations intended to improve the effectiveness of the
Haitian Diaspora Marketplace Program implemented by Fondation Sogebank and
financed by USAID/Haiti. With the administrative decision to terminate the program,
USAID/Haiti has taken final action on 14 of the 15 recommendations. A management
decision has been reached on the remaining recommendation. Please provide the
Office of Audit Performance and Compliance Division with the necessary documentation
to achieve final action on the remaining recommendation.

I appreciate the cooperation and courtesy extended to my staff throughout the review.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel. 503-2501-2999 • Fax 503-2228-5459
www.usaid.gov/oig
SUMMARY
The Republic of Haiti continues to face considerable economic hardships because of the
country’s unstable political and social environment and its slow recovery from the
devastating earthquake of January 2010. Limited infrastructure and fears of insecurity
have depressed investment in Haiti. As a result, extremely high unemployment persists
because job opportunities are scarce, and Haiti depends heavily on foreign assistance
and remittances received from Haitians living abroad, a group referred to as the Haitian
Diaspora.

The remittances, which exceed $1 billion, represent an estimated 25 percent of Haiti’s
annual gross domestic product. The Haitian Diaspora Marketplace Program hopes to
tap into these remittances to spur economic growth in Haiti. The program, operated by
Fondation Sogebank 1 (the Foundation) under a $2 million cooperative agreement with
USAID/Haiti, helps investors from the Haitian Diaspora establish business ventures in
productive sectors of the Haitian economy. The program is designed to distribute small
grants, between $50,000 and $100,000, to support initiatives that are likely to increase
Haiti’s gross domestic product, create sustainable jobs, and improve the living conditions
of the population.

The 2-year program began in May 2009 and will run through May 2011. As of
June 30, 2010, USAID/Haiti had obligated the full $2 million and disbursed $48,000 for
the program.

This review was conducted to determine whether the Foundation is managing USAID-
financed activities efficiently and in accordance with agreement requirements and the
Foundation’s own policies and procedures. The review determined that the Foundation
did not comply with all the provisions included in its cooperative agreement with
USAID/Haiti and did not establish operating procedures for the program. The
Foundation should address the problems identified in this review to manage the program
more efficiently (page 5).

The problems include the following:

   Delays slowed the progress of program activities (page 5).

   The project steering committee did not function as envisioned (page 6).

   The Foundation did not issue key documents or set policies and procedures (page
    7).

   The Foundation used various bank accounts to manage program expenses (page 8).

   The program followed an ineffective staffing strategy (page 8).

   Performance indicators did not facilitate program management (page 9).

1
 Fondation Sogebank is a nonprofit foundation formed in 1993 by the shareholders of the Société
Générale Haïtienne de Banque (Sogebank).


                                                                                             2
   The Foundation did not submit progress reports (page 10).

   The program did not require salary documentation (page 10).

   The program’s budgeting controls did not cover procurement (page 11).

This report includes 15 recommendations to improve the operating effectiveness of the
program. Specifically, we recommend that USAID/Haiti:

1. Require Fondation Sogebank to submit an updated implementation plan and
   performance indicator targets to reflect what is possible during the remainder of the
   program (page 6).

2. Develop a strategy that will target and provide technical assistance to bidders that
   are able to submit concept papers of the desired quality (page 6).

3. Review the approval process under the program to determine whether the process
   can be streamlined and accelerated (page 6).

4. Reevaluate and revise the key components of the Haitian Diaspora Marketplace
   Program to address and correct the delays in approving grant proposals (page 6).

5. Work with Fondation Sogebank to reestablish a project steering committee and
   outline the specific responsibilities that the committee will carry out for the remainder
   of the Haitian Diaspora Marketplace Program (page 7).

6. Obtain and approve Fondation Sogebank’s final communications plan, performance
   management plan, and operations manual containing policies and procedures for the
   Haitian Diaspora Marketplace Program (page 8).

7. Require Fondation Sogebank to establish and use a dedicated bank account for all
   Haitian Diaspora Marketplace Program activity (page 8).

8. Verify that Fondation Sogebank has reimbursed, in full, the additional accounts that
   were used to pay program expenses and direct Fondation Sogebank to request
   future advances of funds in a timely manner (page 8).

9. Request an updated staffing strategy for the program that ensures timely and
   adequate coverage for the management of the grants program (page 9).

10. Assist Fondation Sogebank with the development of additional performance
    indicators that will measure the progress and impact of the program (page 9).

11. Conduct data quality assessments on all indicators selected for inclusion in the
    program’s performance management plan (page 10).

12. Enforce Fondation Sogebank’s compliance with the requirement to submit
    semiannual progress reports to the mission’s agreement officer’s technical
    representative (page 10).



                                                                                          3
13. Require that program employees submit activity reports on time to comply with their
    employment contracts (page 11).

14. Make a management decision regarding the $48,715 in unsupported salary charges
    for program employees, and recover from each recipient the amount determined to
    be unallowable (page 11).

15. Help Fondation Sogebank develop and incorporate budgeting processes and
    procedures in its operations manual that require a budget comparison before
    procurement (page 12).

Detailed findings appear in the following section. Appendix I contains a discussion of the
review’s scope and methodology. Our evaluation of USAID/Haiti’s comments appears
on page 13; the comments appear in their entirety in Appendix II.

In its response to the draft report, USAID/Haiti expressed agreement with all 15 of the
recommendations designed to improve the effectiveness of the Haitian Diaspora
Marketplace Program. USAID/Haiti indicated it has decided to terminate the program by
November 30, 2010. Consequently, final action has been taken on 14 of the 15
recommendations.         A management decision has been made regarding
Recommendation 14.




                                                                                        4
REVIEW RESULTS
Fondation Sogebank (the Foundation) did not comply with a number of the provisions
included in its cooperative agreement with USAID/Haiti to implement the Haitian
Diaspora Marketplace Program and did not establish operating procedures for the
program. The Foundation should address the following problem areas to manage the
program more efficiently.

Delays Slowed the
Progress of Program Activities
In its approved program description, the Foundation included a 24-month, three-phase
implementation plan for the program and expected it to fund up to 20 grants of between
$50,000 and $100,000. The program’s current budget reflects Foundation plans to
disburse up to $1.5 million to fund the selected projects.

After 1 year of implementation, no grants had been awarded under the program. In
response to the initial call for grant proposals, the Foundation received 35 concept
papers. At the time of the review, two bidders had advanced to the final round of
approvals for the first grant cycle and were expected to receive funding. A third,
although eligible, faced disqualification for legal reasons. The Foundation’s grant
portfolio after the first year was significantly less than the 10 proposals expected to be
funded during fiscal year 2009. According to the Foundation’s original plans, applicants
should have submitted the second round of concept papers for evaluation by July 30,
2010. However, as of August 24, 2010, the Foundation had not yet requested the
second round of proposals. As a result, midway through its 2 years, the program had
expended none of its grant funds for Diaspora entrepreneurs and had few proposals
under consideration for funding.

According to Foundation officials, the program suffered delays at the outset partly
because of difficulty finding a qualified project coordinator. Although the cooperative
agreement was signed in May 2009, the initial project coordinator was not hired until
October 2009.

As the program got under way, Foundation officials expressed their displeasure with the
quality of the submissions. According to Foundation officials, many potential grantees
needed technical assistance to improve the quality of their concept papers and produce
viable business proposals.

The January 2010 earthquake further disrupted approval of the grants. Following the
earthquake, communication between the Foundation and the winning bidders was
interrupted for approximately 2 months and was not reestablished until March 2010. The
project coordinator sustained severe injuries in the earthquake and could not continue
with the program. A replacement coordinator was hired in May 2010.

Unless the Foundation identifies appropriate grants and disburses funds to the grantees,
the program cannot meet its stated goals and objectives. The program has not met its
original targets for grants selected and project funding disbursed; therefore, a new
implementation plan is needed. Furthermore, without more assistance to grantees on


                                                                                        5
the technical aspects of preparing the application, the program may lose a valuable
opportunity to encourage investment from the Haitian Diaspora. To address these
concerns, we make the following recommendations.

   Recommendation 1. We recommend that USAID/Haiti require Fondation
   Sogebank to submit an updated implementation plan and performance indicator
   targets to reflect what is possible during the remainder of the Haitian Diaspora
   Marketplace Program.

   Recommendation 2. We recommend that USAID/Haiti work with Fondation
   Sogebank to develop a strategy that will target and provide technical assistance
   to bidders that are able to submit concept papers of the desired quality.

   Recommendation 3.       We recommend that USAID/Haiti and Fondation
   Sogebank review the approval process under the Haitian Diaspora Marketplace
   Program to determine whether the process can be streamlined and accelerated.

   Recommendation 4.      We recommend that USAID/Haiti and Fondation
   Sogebank reevaluate and revise the key components of the Haitian Diaspora
   Marketplace Program to address and correct the delays in approving grant
   proposals.

The Project Steering Committee
Did Not Function as Envisioned
According to the program description, the project steering committee was to be the
mechanism to ensure adequate coordination of the main parties involved in the program.
The steering committee was to comprise delegates from the Foundation, USAID, and
other stakeholders and was intended to (1) ensure adequate planning and preparation of
the project launching phase, (2) select the concept papers for funding, and (3) monitor
project implementation. The steering committee was to meet at least once a month and
adopt the program’s operating procedures no later than at the second meeting.
Furthermore, the steering committee was to monitor the implementation schedule and
take the corrective actions needed to meet the program’s goals.

From the start of the program in May 2009 until July 2010, the project steering
committee convened only twice and did not carry out the functions outlined in the
program description. Instead, a project management committee, largely made up of the
Foundation’s senior management, assumed these responsibilities.

The lack of oversight by the project steering committee during implementation may have
contributed to the delays experienced by the program. Furthermore, without appropriate
oversight, the program may experience delays in future rounds of the grant cycle.
Although the Foundation officials stated that they maintained regular communication with
the USAID/Haiti technical office and that additional oversight from the project steering
committee was not necessary, program results indicated that the project management
committee did not provide the needed oversight and management.




                                                                                      6
    Recommendation 5. We recommend that USAID/Haiti work with Fondation
    Sogebank to reestablish a project steering committee and outline the specific
    responsibilities that the committee will carry out for the remainder of the Haitian
    Diaspora Marketplace Program.

The Foundation Did Not Issue
Key Documents or Set Policies
and Procedures
According to the Substantial Involvement clause of the cooperative agreement between
the Foundation and USAID/Haiti, the mission should approve key program documents
and key program personnel. The clause also requires the Foundation to report
deviations from the budget and to request prior approvals from the agreement officer for
any of the following reasons:

   To change the scope or the objectives of the program or revise the funding allocated
    among program objectives;

   To change a key person specified in the award or allow a 25 percent reduction in
    time devoted to the program.

Also, the agreement requires the Foundation to establish policies and procedures for
implementing the program.

According to the mission, key program documents, including the communication plan
and the performance management plan (PMP), had not been approved by the
agreement officer’s technical representative as required under the cooperative
agreement. USAID/Haiti officials recalled receiving a draft of the communications plan in
November 2009 but said the Foundation had never submitted a final version. The
Foundation submitted the PMP to USAID/Haiti in June 2010, midway through the
program.

Similarly, the Foundation did not report deviations from the budget or seek approval of
changes in program personnel. Foundation officials did not notify the mission of a slight
budget revision made in November 2009; USAID/Haiti officials were unaware of this
adjustment at the time of this review. Regarding personnel, it was unclear whether the
Foundation had sought USAID/Haiti approval for the change in project coordinator,
which took place in May 2010.

The Foundation had prepared an operations manual that covers policies and procedures
for program revenues, procurement actions, payments, and accounting operations.
However, as of the date of the review, the Foundation had not issued the manual.
Instead, the manual was still considered to be in draft more than a year after program
implementation had begun.

Thus, the Foundation did not comply with key provisions of the USAID/Haiti cooperative
agreement. Without approved program documents—a communication plan, a PMP, and
program policies and procedures—it will be difficult for the Foundation to implement and
monitor the program effectively. Moreover, without being informed of budget deviations
and personnel changes, the mission cannot fulfill its monitoring role.


                                                                                          7
   Recommendation 6. We recommend that USAID/Haiti obtain and approve
   Fondation Sogebank’s final communications plan, performance management
   plan, and operations manual containing policies and procedures for the Haitian
   Diaspora Marketplace Program.

The Foundation Used Various
Bank Accounts to Manage
Program Expenses
According to USAID’s Mandatory Standard Provisions for Non-U.S. Nongovernmental
Recipients (a mandatory reference for Chapter 303 of USAID’s Automated Directives
System), the Foundation should deposit all USAID advance cash payments in a
separate bank account and make all disbursements for program goods and services
(such as salaries, rent, and supplies) from this account.

However, after signing the cooperative agreement in May 2009, the Foundation used
five bank accounts to disburse program funds. For the first 6 months of the program, the
Foundation paid all expenses using other accounts; when USAID/Haiti provided the first
advance—the Foundation did not request any advance funds from USAID/Haiti until
December 2009—the Foundation deposited the funds in those five accounts to
reimburse them for the expenses already paid.

Not using a single account to make all program disbursements complicated accounting
transactions, prompting examination of the Foundation’s balance sheet and
documentation. The examination disclosed accounting and documentation irregularities.
The Foundation’s accounting records reflect liabilities for salaries paid to a current
program employee using nonprogram funds and for salaries not yet paid to a former
program employee. These accounting entries are incorrect because the Foundation
received reimbursement for the salaries. Furthermore, program officials issued salary
payments to some employees without requiring activity reports to support the payments.

The multitude of bank accounts increases the difficulty of tracking program expenses
and increases the likelihood that some expenses will be unaccounted for by the
program.

   Recommendation 7. We recommend that USAID/Haiti require Fondation
   Sogebank to establish and use a dedicated bank account for all Haitian Diaspora
   Marketplace Program activity.

   Recommendation 8. We recommend that USAID/Haiti verify that Fondation
   Sogebank reimbursed, in full, the additional accounts that were used to pay
   Haitian Diaspora Marketplace Program expenses, and direct Fondation
   Sogebank to request future advances of program funds in a timely manner.

The Program Followed an
Ineffective Staffing Strategy
The program was slow to add staff. At the time of the review, the program had recently
added two staff members—a project coordinator and an investment officer—to assist


                                                                                      8
with the management of the program. In planning documents, program officials stated
their intention to hire an additional investment officer to manage the grants program, but
the search for a qualified investment officer was expected to take several weeks or
months. Meanwhile, for several months, the Foundation’s managing director was
responsible for managing all the functions of the program.

Foundation officials explained their strategy. They said they preferred to look for
qualified candidates who are well known and respected in their respective industry
sector rather than submit a vacancy announcement to a local newspaper or other
medium because an announcement might generate an excessive number of resumes.
However, the results indicated that the strategy officials followed was not effective.

The understaffing of the program contributed to implementation delays. Without
adequate staff for the management of the next grant cycle, additional delays likely will
occur.

   Recommendation 9. We recommend that USAID/Haiti request an updated
   staffing strategy for the Haitian Diaspora Marketplace Program that will provide
   timely and adequate coverage for the management of the grants program.

Performance Indicators Did Not
Facilitate Program Management
USAID’s Automated Directives System (ADS) Chapter 203, “Assessing and Learning”
(203.3.4.1), advises missions to select for a program’s PMP performance indicators that
are the most appropriate for the result being measured. The same chapter (203.3.5.2)
requires that a data quality assessment be performed for all data submitted to
Washington for reporting on Agency performance and that the assessment take place
within the 3 years before data submission.

The Foundation, however, developed indicators that do not reflect program results, and
the Foundation did not test the quality of indicator data. In the draft PMP, several
indicators were developed to manage the progress of the program. These indicators—
total amount of grants awarded and total number of grants awarded—are output
indicators, meaning they measure only the accomplishment of the task and not the
greater impact of the program. The Foundation did not develop any impact indicators,
such as businesses established with the grants or increase in business income as a
result of the grants. Moreover, as of the date of the review, USAID/Haiti had not
completed any data quality assessments for the program because the Foundation had
not completed the PMP.

The indicators selected will provide little useful information about the impact of the
program. Furthermore, without an assessment of the quality of the data collected for the
program, USAID/Haiti may base funding or programmatic decisions on inaccurate or
poor-quality data.

   Recommendation 10. We recommend that USAID/Haiti assist Fondation
   Sogebank with the development of performance indicators that will measure the
   progress and impact of the program’s activities.




                                                                                        9
   Recommendation 11. We recommend that USAID/Haiti conduct data quality
   assessments on all indicators selected for inclusion in the program’s
   performance management plan.

The Program Did Not Submit
Progress Reports
According to its cooperative agreement with USAID/Haiti, the Foundation is to submit
semiannual progress reports to USAID/Haiti that include: (1) program and project
indicator data based on USAID/Haiti’s approved PMP and the indicators set forth in the
program description, and (2) information on program activities, including status,
implementation challenges, and planned activities, along with a timeline.

According to USAID/Haiti officials, the Foundation had not submitted the required
progress reports. The activities under the program were severely delayed, and the
program’s PMP and corresponding performance indicators had not received mission
approval. Therefore, officials from the program had not prepared and sent semiannual
progress reports to USAID/Haiti as required.

Without regular progress reports that detail the status of activities and implementation
challenges and successes, USAID/Haiti and the Foundation cannot properly manage the
program.    Although Foundation officials reported that they maintained regular
communication with USAID/Haiti regarding the program, the lack of official reporting may
have been responsible for some of the delay in implementation. If the Foundation had
reported implementation challenges when it encountered them, USAID/Haiti might have
been able to provide additional assistance to remove obstacles and improve program
performance.

   Recommendation 12. We recommend that USAID/Haiti enforce Fondation
   Sogebank’s compliance with the requirement to submit semiannual progress
   reports to the mission’s agreement officer’s technical representative.

The Program Did Not Require
Salary Documentation
According to USAID’s Mandatory Standard Provisions for Non-U.S. Nongovernmental
Recipients (a mandatory reference for ADS Chapter 303), “Accounting, Audit, and
Records,” accounting records supported by documentation are required for all costs
incurred under the award. Salaries being a cost under the award, program employees
are to receive their salaries only after submitting monthly activity reports to their
supervisors.

No monthly activity reports were available for the first program coordinator, who worked
for the program from October 2009 until January 2010. This employee was to be paid
quarterly, and her activity reports were due in early January. However, the program
coordinator sustained significant injuries in the January earthquake and left the program.
As a result, the Foundation had not received any of the required monthly activity reports
from the program coordinator, and the employee had not been paid.




                                                                                       10
Likewise, no activity reports were available for the Foundation’s managing director.
Between the departure of the first program coordinator and the hiring of her
replacement, the Foundation’s managing director was the only employee of the program.
Also, according to Foundation officials, the submission of the managing director’s
monthly activity reports was not deemed urgent. Therefore, no official record of the
program activities undertaken by the managing director from June to September 2009
had been submitted, as required.

As for salary payments, expenses were accrued for both employees, and the Foundation
received reimbursement for both. Although the program coordinator had not been paid,
the Foundation had requested and received reimbursement for her salary expenses.
The Foundation used the funds to reimburse nonprogram accounts used to pay program
expenses prior to May 2010. Corrective action of this issue is addressed in
Recommendation 8 of this report. Meanwhile, the managing director charged his salary
to the program based on the percentage of his time worked on program activities. The
Foundation paid his salary with nonprogram funds that were to be reimbursed even
though he had not submitted reports regarding his program-related activities.

The program had long-outstanding payables totaling $48,715 for these two employees
on the program’s books. However, the program received reimbursement for the salaries
of these employees. Additionally, these expenses were accrued without the employees
providing the required support for the completion of their tasks, creating unsupported
salary charges.

   Recommendation 13.        We recommend that USAID/Haiti require Haitian
   Diaspora Marketplace Program employees to submit activity reports on time to
   comply with their employment contracts.

   Recommendation 14. We recommend that USAID/Haiti make a management
   decision regarding the $48,715 in unsupported salary charges for Haitian
   Diaspora Marketplace Program employees, and recover the amount determined
   to be unallowable.

Budgeting Controls Did Not
Cover Procurement
At the start of the program, the Foundation submitted a detailed budget for $2 million.
To manage this budget, it incorporated a brief section of controls over budgeting
processes in the draft of its operations manual.

The budgeting controls outlined in the draft of the operations manual require “periodic”
comparison of program expenses with the budget, but the period is not specified. The
manual does not require a budget comparison before procurement actions.

Without comparing the program’s expenditures with the budget, especially before
procurement, the program risks exceeding the budgeted amount for a specific line item
and losing the right to reimbursement for the additional expense.




                                                                                     11
Recommendation 15.        We recommend that USAID/Haiti help Fondation
Sogebank develop and incorporate budgeting processes and procedures in its
operations manual that require a budget comparison before procurement.




                                                                             12
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Haiti expressed agreement with all 15 of the
recommendations presented. Because of the numerous deficiencies noted in the
management of the program, USAID/Haiti indicated it intends to terminate the Haitian
Diaspora Marketplace Program effective November 30, 2010. The agreement officer
notified Fondation Sogebank in a termination letter of this action. As a result, final action
has been taken on 14 of the 15 recommendations included in the draft review report.

Regarding Recommendation 14, USAID/Haiti stated that an Audit Resolution
Committee, chaired by the agreement officer, will conduct a review of documentation
provided by Fondation Sogebank regarding $48,715 in questioned costs for unsupported
salary charges for current and former program employees. A final determination on the
amount considered unallowable that is to be recovered will be made within 30 days of
the issuance of this report. On the basis of this proposed action and timeline, a
management decision has been reached on this recommendation.

USAID/Haiti’s comments are presented in their entirety in Appendix II.




                                                                                          13
                                                                            Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this review in accordance with
the general standards in Chapter 3 of Government Auditing Standards and the Office of
Inspector General Audit Procedures Handbook. The standards for a review require that
sufficient testing and work be conducted to express a conclusion on our findings, based
on the review objective. We believe that sufficient work was performed to express the
conclusions contained in this report.

This review was designed to determine whether the Fondation Sogebank (the
Foundation) is managing USAID-financed activities efficiently and in accordance with
agreement requirements and the Foundation’s own policies and procedures. No other
reviews have been conducted regarding the Foundation’s management of USAID-
financed activities.

This review was conducted at the Foundation’s offices in Port-au-Prince, Haiti, from
July 20 to July 29, 2010. The review focused on the Foundation’s management of the
Haitian Diaspora Marketplace Program to date. The 2-year program began in May 2009
and will run through May 2011. As of June 30, 2010, USAID/Haiti had obligated the full
$2 million and disbursed $48,000 for the program.

Methodology
To answer the review objective, we obtained an understanding of what USAID/Haiti and
the Foundation intended to accomplish under the Haitian Diaspora Marketplace
Program. We interviewed officials from USAID/Haiti, including the agreement officer’s
technical representative, and the Foundation, including the managing director. We
reviewed the terms of the cooperative agreement between USAID/Haiti and the
Foundation and the Foundation’s own policies and procedures for the management of
the program. On the basis of these terms and policies, we determined whether the
Foundation was managing the USAID-funded activities efficiently and in accordance with
its own policies and procedures. We set no materiality threshold for the review
objective.




                                                                                    14
                           MANAGEMENT COMMENTS                                Appendix II




TO:           Catherine Trujillo, RIG/San Salvador

FROM:         Carleene Dei, Mission Director /s/

DATE:         October 15, 2010

SUBJECT:      Mission Response to the draft RIG Audit Report of USAID/Haiti’s funded
              activity, Haiti Diaspora Marketplace (HDM) implemented by Fondation
              Sogebank (FSGB)-Report No. 1-521-10-00X-S


This memorandum represents USAID/Haiti’s formal response to the draft RIG audit
report of the Mission’s Haiti Diaspora Marketplace (HDM) to determine whether the
Foundation is managing USAID-financed activities efficiently and in accordance with
agreement requirements and the Foundation’s own policies and procedures (Report No.
1-521-10-00X-S). USAID/Haiti appreciates the time and effort of the RIG staff in
carrying-out this audit and for the professional and cooperative manner in which the audit
was conducted.

General Comments:

The auditors provided 15 recommendations, fourteen of which were actions that are
directly related to establishing key procedures for the effective management of the
program.

USAID/Haiti fully agrees with the recommendations which, when taken together,
indicate that far reaching measures are required to ensure that the program is being
effectively managed, in terms of activity planning, implementation, monitoring, reporting
and financial management. USAID/Haiti, based on its own prior independent
observations (that have been fully confirmed by the RIG audit), has therefore taken the
administrative decision to terminate this project.

Finally, an action plan and timeframe are developed below regarding the implementation
of recommendation No. 14 which is related to unsupported salary charges.

Recommendation 1. We recommend that USAID/Haiti require Fondation Sogebank
to submit an updated implementation plan and performance indicator targets to
reflect what is possible during the duration of the Haitian Diaspora Marketplace
Program.




                                                                                       15
Recommendation 2. We recommend that USAID/Haiti work with Fondation
Sogebank to develop a strategy that will target and provide technical assistance to
bidders that are able to submit concept papers of the desired quality.

Recommendation 3. We recommend that USAID/Haiti and Fondation Sogebank
review the approval process under the Haitian Diaspora Marketplace Program to
determine whether the process can be streamlined and accelerated.

Recommendation 4. We recommend that USAID/Haiti and Fondation Sogebank
reevaluate and revise the key components of the Haitian Diaspora Marketplace
Program to address and correct the delays in approving grant proposals.

Recommendation 5. We recommend that USAID/Haiti work with Fondation
Sogebank to reestablish a project steering committee and outline the specific
responsibilities that the committee will carry out for the remainder of the Haitian
Diaspora Marketplace Program.

Recommendation 6. We recommend that USAID/Haiti obtain and approve
Fondation Sogebank’s final communications plan, performance management plan,
and operations manual containing policies and procedures for the Haitian Diaspora
Marketplace Program.

Recommendation 7. We recommend that USAID/Haiti require Fondation Sogebank
to establish and use a dedicated bank account for all Haitian Diaspora Marketplace
Program activity.

Recommendation 8. We recommend that USAID/Haiti verify that Fondation
Sogebank has reimbursed, in full, the additional accounts that were used to pay for
Haitian Diaspora Marketplace Program expenses, and direct Fondation Sogebank to
request future advances of program funds in a timely manner.

Recommendation 9: We recommend that USAID/Haiti request an updated staffing
strategy for the Haitian Diaspora Marketplace Program that will provide timely and
adequate coverage for the management of the grants program.

Recommendation 10. We recommend that USAID/Haiti assist Fondation Sogebank
with the development of performance indicators that will measure the progress and
impact of the program’s activities.

Recommendation 11. We recommend that USAID/Haiti conduct data quality
assessments on all indicators selected for inclusion in the program’s performance
management plan.




                                                                                      16
Recommendation 12. We recommend that USAID/Haiti follow-up with Fondation
Sogebank to ensure its compliance with the requirement to submit semiannual
progress reports to the mission’s agreement officer’s technical representative.

Recommendation 13. We recommend that USAID/Haiti require Haitian Diaspora
Marketplace Program employees to submit activity reports on time to comply with
their employment contracts.

Recommendation 15. We recommend that USAID/Haiti help Fondation Sogebank
develop and incorporate budgeting processes and procedures in the operations
manual that require a budget comparison at the time of procurement.

Planned Action:

The USAID Mission in Haiti has taken the administrative decision to terminate this
project by November 30, 2010. A termination letter was sent to Fondation Sogebank by
the Agreement Officer to notify them of this action.

Recommendation 14. We recommend that USAID/Haiti make a management
decision with regard to the $48,715 in unsupported salary charges for Haitian
Diaspora Marketplace Program employees, and recover from each recipient the
amount determined to be unallowable.

Planned Action:

The Audit Resolution Committee (ARC) chaired by the Agreement Officer will review
the supporting documents related to the questioned costs, and will make a final
determination within 30 days of the final report issued date.

Once again, we would like again to express our appreciation for the professional manner
in which the audit was conducted. The initiative of listing in advance the documentation
needed for the audit contributed to a smoother implementation of the field work.

This audit has given us the opportunity to receive clear and to the point recommendations
that would have enabled us, under different circumstances, to improve overall
management of the HDM project.




                                                                                      17
